W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-140

Rosemary Garity

APWU National Labor Organization et al.

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
American Postal Workers Union National Labor Organization

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Michael T. Anderson

Date:

8/3/21

(Type or print) Name

Michael T. Anderson
Mr.

Firm

Digitally signed by Michael T. Anderson
Date: 2021.08.03 17:36:11 -04'00'

Ms.

Mrs.

Miss

Murphy Anderson PLLC

Address

1401 K St NW Suite 300

City & State

Washington

Phone

202-223-2620

Zip 20005-3422
Email

manderson@murphypllc.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Rosemary Garity (by email geritz1@outlook.com)
David A. Rosenfeld, counsel for Nevada Postal Workers Union (drosenfeld@unioncounsel.net)

